               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-02315-332




    Combined Assessment Program 

            Review of the 

     Edward Hines, Jr. VA Hospital 

            Hines, Illinois 





September 26, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                              CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



                                              Glossary
                 CAP            Combined Assessment Program
                 CARF           Commission on Accreditation of Rehabilitation
                                Facilities
                 CI             cochlear implant
                 CLC            community living center
                 COC            coordination of care
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Edward Hines, Jr. VA Hospital
                 FY             fiscal year
                 HPC            hospice and palliative care
                 ICC            Infection Control Committee
                 MMU            mobile medical unit
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SCI/D          spinal cord injury and disorders
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                         CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             8

  COC – HPC ............................................................................................................          10

  Pressure Ulcer Prevention and Management .........................................................                              12

  Nurse Staffing .........................................................................................................        14

  Construction Safety.................................................................................................            15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 18

  C. VISN Director Comments ..................................................................................                    19

  D. Facility Director Comments ...............................................................................                   20

  E. OIG Contact and Staff Acknowledgments .........................................................                              23

  F. Report Distribution .............................................................................................            24

  G. Endnotes ...........................................................................................................         25





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
July 15, 2013.

Review Results: The review covered seven activities.                             We    made      no
recommendations in the following three activities:

   Quality Management

   Pressure Ulcer Prevention and Management

   Nurse Staffing

The facility’s reported accomplishments were launching the veterans mobile medical
unit, achieving perfect accreditation with exemplary conformance from the Commission
on Accreditation of Rehabilitation Facilities International, implementing the cochlear
implant program, and implementing the da Vinci® Surgical System.

Recommendations: We made recommendations in the following four activities:
Environment of Care: Ensure Infection Control Committee minutes reflect discussion of
high-risk areas and actions implemented to address these areas. Require that
operating room employees who perform immediate use sterilization receive annual
competency assessments.

Medication Management – Controlled Substances Inspections: Ensure inspectors
consistently verify the three identified required drug destruction activities.

Coordination of Care – Hospice and Palliative Care: Include a dedicated administrative
support person on the Palliative Care Consult Team.

Construction Safety: Conduct a contractor tuberculosis risk assessment prior to
construction project initiation.

Comments:
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–22, for the full




VA OIG Office of Healthcare Inspections                                                           i
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


text of the Directors’ comments.) We consider recommendation 2 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   COC – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
July 18, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews.       We also asked the facility to provide the status on the



VA OIG Office of Healthcare Inspections                                                           1
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Edward Hines, Jr. VA Hospital, Hines, Illinois, Report
No. 10-02384-33, November 22, 2010).

During this review, we presented crime awareness briefings for 220 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
278 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Veterans MMU
On June 12, 2013, the facility’s MMU received recognition from the Chicago Federal
Executive Board as one of three finalists for the Agency of the Year award. The 38-foot
veterans MMU was launched on September 29, 2012. It travels throughout the Chicago
metropolitan area to assist veterans with enrollment in VA health care and to provide
information and top-quality health care. The MMU features two separate exam areas, a
counseling room, and on-the-spot enrollment. Since its deployment, the MMU and its
staff have attended 38 outreach events, 27 of which were in rural counties; registered or
provided information to 369 veterans; enrolled 144 veterans, including a former World
War II Prisoner of War who enrolled for the first time; and completed 49 vesting exams.

Perfect CARF Accreditation with Exemplary Conformance
On September 11, 2012, the facility was accredited for 3 years by CARF International
and received no recommendations in the 8 rehabilitation programs that were surveyed.
This is an extraordinary accomplishment as only 3 percent of CARF surveys result in no
recommendations. The programs that were surveyed are the Substance Abuse
Residential Rehabilitation Treatment Program, the Psychosocial Rehabilitation and
Recovery Center, the Compensated Work Therapy Program, the Health Care for
Homeless Veterans Program, the SCI/D System of Care, inpatient physical medicine
and rehabilitation, the inpatient amputation program, and the Central Blind
Rehabilitation Center.      Additionally, CARF specified three areas of exemplary
conformance. They are state-of-the-art orthotic and prosthetic services, the SCI/D
telehealth program that uses state-of-the-art video technology, and a vocational
rehabilitation program that uses a specially-designed computer laboratory to aid SCI/D
patients in gaining greater independence.



VA OIG Office of Healthcare Inspections                                                           2
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


CI Program
A CI is a surgically implanted electronic device that provides a sense of sound to a
person who is profoundly deaf or severely hard of hearing. The CI program at the
facility treated its first patient on February 14, 2012, and serves as the referral site for
patients from all VISN 12 facilities. Since the program’s inception, 14 CIs have been
completed. At the June 12, 2013, Chicago Federal Executive Board award ceremony,
the CI Team received recognition as a nominee for the Outstanding Team award.

The da Vinci® Surgical System
The da Vinci® Surgical System is a sophisticated robotic platform that offers a
state-of-the-art minimally invasive option for major surgery. The first surgery using this
technology was performed at the facility in February 2012. During FY 2012, this
technology was used for 37 surgeries, and in FY 2013 through July 31, 2013, it was
used for 65 surgeries. In the future, patients from other VISN 12 facilities will benefit
from this improved method of providing care.




VA OIG Office of Healthcare Inspections                                                           3
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews of at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                    4
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


 NC             Areas Reviewed (continued)                                    Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
 NA    Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    5
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the locked mental health, SCI/D, surgical intensive care, and surgical units; one
CLC unit; the outpatient hemodialysis unit; the pulmonary outpatient clinic; the emergency
department; and SPS. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 30 employee training and competency files
(10 hemodialysis, 10 operating room, and 10 SPS). The table below shows the areas reviewed
for this topic. The areas marked as NC needed improvement. Any items that did not apply to
this facility are marked NA.

 NC          Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
 X     An infection prevention risk assessment was      Infection prevention risk assessment and
       conducted, and actions were implemented to       12 months of ICC meeting minutes reviewed:
       address high-risk areas.                          Minutes did not reflect consistent discussion
                                                           of high-risk areas or actions that were
                                                           implemented to address these areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning    
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.


VA OIG Office of Healthcare Inspections                                                                    6
                                                    CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


 NC          Areas Reviewed for Hemodialysis                                  Findings
                          (continued)
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines     
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach     
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines     
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training            
       and competency assessment.
 X     Operating room employees who performed              All 10 operating room employees performed
       immediate use (flash) sterilization received         immediate use sterilization and had been on
       training and competency assessment.                  duty for more than 2 years; there was no
                                                            evidence that 8 received annual competency
                                                            assessments.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional               
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

1. We recommended that processes be strengthened to ensure that ICC minutes reflect
discussion of high-risk areas and actions implemented to address these areas.

2. We recommended that processes be strengthened to ensure that operating room
employees who perform immediate use sterilization receive annual competency assessments.


VA OIG Office of Healthcare Inspections                                                                     7
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
 X     Pharmacy CS inspections were conducted in        Documentation of pharmacy CS inspections
       accordance with VHA requirements and             during the past 6 months reviewed:
       included all required elements.                   Inspectors did not consistently verify the audit
                                                          trail by comparing drugs held for destruction
                                                          with the destroyed drugs report.
                                                         Inspectors did not consistently verify that drug
                                                          destructions were completed at least
                                                          quarterly.
                                                         Audit trails for destruction of 10 randomly
                                                          selected drugs were not consistently verified.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    8
                                               CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



Recommendation

3. We recommended that processes be strengthened to ensure that inspectors consistently
verify the three identified required drug destruction activities and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                9
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


COC – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person had not
                                                            been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                   10
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


NC             Areas Reviewed (continued)                                    Findings
NA     The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person.




VA OIG Office of Healthcare Inspections                                                                   11
                                                  CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 30 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
10 patients with pressure ulcers at the time of our onsite visit), and 10 employee training
records. Additionally, we inspected three patient rooms. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  12
                                                  CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


NC             Areas Reviewed (continued)                                    Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  13
                                                   CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 49 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 7E, CLC unit 2C, and mental health unit 2S for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                        Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   14
                                                    CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the “second floor deficiencies” project. Additionally, we reviewed relevant
documents and 20 training records (10 contractor records and 10 employee records), and we
conversed with key employees and managers. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
 X     Infection control, preconstruction, interim life   Risk assessments reviewed:
       safety, and contractor tuberculosis risk            A contractor tuberculosis risk assessment
       assessments were conducted prior to project           was not conducted prior to project initiation.
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       ICC minutes documented infection
       surveillance activities associated with the
       project(s) and any interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.



VA OIG Office of Healthcare Inspections                                                                       15
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


Recommendation

5. We recommended that processes be strengthened to ensure that a contractor tuberculosis
risk assessment is conducted prior to construction project initiation.




VA OIG Office of Healthcare Inspections                                                          16
                                                    CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                                Appendix A


         Facility Profile (Hines/578) FY 2013 through May 2013a
Type of Organization                                                           Tertiary
Complexity Level                                                               1a-High complexity
Affiliated/Non-Affiliated                                                      Affiliated
Total Medical Care Budget in Millions                                          $555.8
Number (through June 2013) of:
    Unique Patients                                                           50,109
    Outpatient Visits                                                         488,869
    Unique Employeesb                                                         3,754
Type and Number of Operating Beds:
    Hospital                                                                  248
    CLC                                                                       210
    Mental Health                                                             25
Average Daily Census:
    Hospital                                                                  187
    CLC                                                                       141
    Mental Health                                                             21
Number of Community Based Outpatient Clinics                                   6
Location(s)/Station Number(s)                                                  Joliet/578GA
                                                                               Kankakee County/578GC
                                                                               Aurora/578GD
                                                                               Elgin/578GE
                                                                               Lasalle/578GF
                                                                               Oak Lawn/578GG
VISN Number                                                                    12




a
    All data is for FY 2013 through May 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                    17
                                                CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                            Appendix B


                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                  Inpatient Scores                                  Outpatient Scores
                 FY 2012     FY 2013                                    FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 3–4    Quarters 1–2    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    64.4            62.3            62.1             61.7             58.1             62.3
    VISN        66.0            67.0            59.2             59.0             57.4             59.6
    VHA         65.0            65.5            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   15.2            9.8              13.0            19.5             26.9             23.4
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         18
                                           CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           August 27, 2013 


       From:           Director, VA Great Lakes Health Care System (10N12) 


       Subject:        CAP Review of the Edward Hines, Jr. VA Hospital, 

                       Hines, IL

       To:             Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the Office of Healthcare Inspections recommendations as
          well as the corrective action plans developed by the Hines VA Medical
          Center.

       2. Thank you for the opportunity to review the findings enclosed in this
          report.




       Jeffrey A. Murawsky, M.D.




VA OIG Office of Healthcare Inspections                                                           19
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                      Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           August 27, 2013

       From:           Director, Edward Hines, Jr. VA Hospital (578/00)

       Subject:        CAP Review of the Edward Hines, Jr. VA Hospital,
                       Hines, IL

       To:             Director, VA Great Lakes Health Care System (10N12)

       1. I have reviewed the draft report for the Hines VA Hospital and concur
          with the findings and recommendations.

       2. I appreciate the opportunity for this review as it provides for a continual
          process to improve care to our Veterans.


           (original signed by:)
       Joan M. Ricard, FACHE




VA OIG Office of Healthcare Inspections                                                          20
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
ICC minutes reflect discussion of high-risk areas and actions implemented to address
these areas.

Concur

Target date for completion: November 30, 2013

Facility response: All deemed high-risk areas assessed per the annual infection control
risk assessment audit will be added as a standing agenda item to the monthly Infection
Control Committee Meeting Agenda and documented in the committee minutes. All
follow-up actions will be documented in the minutes and placed on the tracking tool until
closure. Audits will be conducted by Quality and Systems Improvement quarterly to
insure action items are closed within 90 days, if applicable.

Recommendation 2. We recommended that processes be strengthened to ensure that
operating room employees who perform immediate use sterilization receive annual
competency assessments.

Concur

Target date for completion: Completed August 23, 2013

Facility response: Training Schedules for annual competency assessments have been
created, competency assessments have been conducted, and a Clinical Nurse Manager
has completed an audit of the competencies, which reflects that all Operating Room
employees have received annually competency assessments.

Recommendation 3. We recommended that processes be strengthened to ensure that
inspectors consistently verify the three identified required drug destruction activities and
that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response: Hines VA Hospital’s Logistics, Controlled Substance Coordinator, and
Pharma Logistics, a contractor, will strengthen the audit trail to show evidence of
comparing drugs held for destruction with the destroyed drugs report. Logistics will
witness Pharma Logistics’ entry of the destruction into their database system and


VA OIG Office of Healthcare Inspections                                                          21
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL


forward the Drug Enforcement Administration (DEA) 41 Forms to the Controlled
Substance Coordinator. The Controlled Substance Coordinator, along with the
Controlled Substance Inspector, will complete audits of 10 drugs on each of 3 DEA
forms submitted from Logistics. The Controlled Substance Coordinator will document
all non-matching occurrences of controlled substance documentation from Logistics and
Procurement and all audit results, along with action plans and resolutions, in the
Monthly Controlled Substance Report. The Controlled Substance Coordinator will
report quarterly to the Quality Council Committee to assure sustained adherence to the
drug destruction process per Handbook 1108.02. Reporting to Quality Council will be
reduced to twice per year after two compliant quarters are demonstrated.

Recommendation 4. We recommended that processes be strengthened to ensure that
the PCCT includes a dedicated administrative support person.

Concur

Target date for completion: December 31, 2013

Facility response: Implement 0.25 dedicated staff by first quarter 2014.

Recommendation 5. We recommended that processes be strengthened to ensure that
a contractor tuberculosis risk assessment is conducted prior to construction project
initiation.

Concur

Target date for completion: October 31, 2013

Facility response: The Infection Control Risk Assessments (ICRA) were expanded to
include tuberculosis (TB) risk assessments. All construction projects have an ICRA
completed prior to initiation of the project. Audits will be conducted by Facilities
Management Service to insure that all ICRAs are complete and available within 60 days
prior to the construction project start date.




VA OIG Office of Healthcare Inspections                                                          22
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                      Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Roberta Thompson, LCSW, Team Leader
Contributors            Debra Boyd-Seale, PhD, RN
                        John Brooks
                        Sheila Cooley, GNP, MSN
                        Wachita Haywood, RN
                        Judy Montano, MS
                        Laura Spottiswood, RN, MPH
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          23
                                          CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Edward Hines, Jr. VA Hospital (578/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard J. Durbin, Mark Kirk
U.S. House of Representatives: Danny K. Davis, Tammy Duckworth, Bill Foster,
 Adam Kinzinger, Daniel Lipinski, Mike Quigley, Peter J. Roskam, Aaron Schock


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          24
                                                CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL
                                                                                            Appendix G

                                               Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       25
                                                 CAP Review of the Edward Hines, Jr. VA Hospital, Hines, IL



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        26
